Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Accuracy of Unique Physician
     Identification Number Data




                   JUNE GIBBS BROWN
                    Inspector General

                      OCTOBER 1999
                      OEI-07-98-00410
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City office prepared this report under the direction of James H. Wolf, Regional
Inspector General. Principal OEI staff included:

REGION                                              HEADQUARTERS

Perry A. Seaton, Project Leader                     Bambi Straw, Program Specialist

Tricia Fields, Program Analyst                      Barbara Tedesco, Mathematical Statistician

Mike Craig, Program Inspection Assistant            Brian Ritchie, Program Analyst

                                                    Scott Horning, Program Analyst




 To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
         Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                     EXECUTIVE                     SUMMARY

PURPOSE
      To determine whether the information associated with Unique Physician Identification
      Numbers is complete and accurate.

BACKGROUND
      The Consolidated Omnibus Budget Reconciliation Act of 1985 requires physicians and
      other health care professionals to obtain a Unique Physician Identification Number
      (UPIN). This is a national number that distinguishes the individual ordering or furnishing
      the service or supply from the entity requesting or receiving Medicare reimbursement,
      such as corporations, clinics and partnerships. In 1989, the Health Care Financing
      Administration (HCFA) established the UPIN Registry and assigned unique numbers to
      Medicare physicians. In 1994, the Registry was expanded to include non-physician
      practitioners and group practices. The Registry also maintains data on each practice
      location, by Provider Identification Number (PIN). The UPIN remains active as long as
      there is at least one active PIN. The HCFA plans to use the Registry information as
      source data for the National Provider Identifier, which will replace UPINs and PINs after
      the year 2000.

      Before the unique identifier is assigned, the individual or entity must enroll with the
      Medicare carrier and provide documentation of any professional and governmental license
      requirements. Each claim for Medicare reimbursement must list the UPIN for the service
      provider, the number of the referring professional, if any, and the entity’s PIN for the
      practice location.

      We obtained the most recent UPIN Registry, also known as the Medicare Physician
      Identification and Eligibility Record data base (October 1998). We analyzed it to
      determine if data was missing or contained improbable entries. In addition, we validated
      information for a stratified sample of providers with State license agencies, independent
      certification entities, and Medicare carriers to determine the error rate for the sample.

FINDINGS
HCFA Has Taken Meaningful Actions to Enhance the Accuracy of UPIN Data

      The HCFA has implemented a number of significant enhancements to the provider
      enrollment process to improve program safeguards and increase the reliability of UPIN
      data. These changes include: additional controls on the assignment of provider numbers;
      new requirements to conduct extensive verification and authentication of license and
      professional qualifications of number applicants; shortened protocols to deactivate
      numbers that do not have recent utilization; requirements for the provider to notify the
      carrier of any changes in their status; and mandatory inclusion of the Social Security
      Number. In addition, HCFA plans to require the periodic re-validation of provider
      information.


   Accuracy of UPIN Data                       1                                     OEI-07-98-00410
      As a result of HCFA actions, our analysis of the sample and the universe shows that
      virtually all Registry data fields are complete and contain feasible entries. We identified
      only 92 Social Security Numbers associated with more than one UPIN, a significant
      improvement when compared to the 1995 Health Economics Research study which found
      up to 11,600 providers with potentially multiple UPIN registrations.

      The Social Security Number, an important identifier, was inaccurate for 13 percent of
      UPINs. We recognize, however, the Balanced Budget Act of 1997 has only recently
      required providers to furnish this information to receive Medicare payment.

Despite These Efforts, Problems Continue to Exist With Some Physician Registry
Data

      Almost one-fourth of the active UPINs have no recent Medicare claims activity

      From our sample we estimate 23 percent of the active UPINs had no claims activity for
      the past year and 17 percent had no claims activity for the past 3 years. We also estimate
      39 percent of the associated active Provider Identification Numbers for individual practice
      settings have no Medicare claims activity within the past year. Twenty-seven percent have
      no activity for the past 3 years.

      Coding instructions and formats adversely affect the usefulness of information

      <	    We estimate 88 percent of the entries for the State license number do not agree with
            the licensure agencies’ information. Of these errors, 72 percent of the numbers differ
            in format and 28 percent contain leading zeros in the first 3 positions of the number.
            Our analysis of the universe established that over 46 percent of the numbers also
            contain 3 or more leading zeros. This convention can create difficulties in performing
            computer matching and number verification.

      <	    We estimate inaccurate professional school codes for 8 percent of the UPINs and for
            5 percent of the PINs.

      <	    We noted additional problems with the coding for physician specialities and
            certifications. For the universe, the board certification code, which is optional data,
            contained feasible codes for only 62 percent of the records for the primary speciality
            and 30 percent of the records for the secondary speciality.

      Some providers have numerous active PINs

      Many providers (68 percent of the total UPIN universe) had 3 or less PINs and most
      (97.9 percent) had 10 or fewer. However, the remaining UPINs had from 11 to
      57 separate billing numbers for each UPIN for a total of 9,535 PINs. This small group of
      providers, in reflecting a high volume of billing numbers, represent an enhanced risk for
      improper billing or utilization by the provider, employees, a third party, or even carrier
      personnel.




   Accuracy of UPIN Data                         2                                      OEI-07-98-00410
       Some UPIN Data is Inconsistent

       Several UPIN data fields for a provider’s individual practice settings contain data that
       apply to all of their practice locations. Examples include: State license number;
       Professional School Code; and Primary and Secondary Speciality Codes. We found
       carriers are updating only some of the provider-specific practice information on the UPIN
       record, resulting in inconsistencies for different practice locations. Maintaining such
       information on each provider’s practice setting greatly increases the opportunity for
       errors, omissions, and discrepancies.

RECOMMENDATIONS
       We have found a number of UPIN and PIN issues that need attention. However, many of
       them can be effectively addressed when HCFA implements its process for periodic
       re-validation of provider information.

Deactivate UPINs and PINs for Inactive Providers and Practice Locations

       The HCFA should ensure that carriers deactivate provider numbers and UPINs in

       accordance with its instructions when no claims have been submitted to them for the

       preceding 12 months. This should be an active review element of the periodic Carrier

       Performance Evaluation review. To reduce program vulnerabilities and minimize

       administrative costs, HCFA could consider implementing a shorter time frame 

       (i.e., 2 consecutive quarters).


Improve Data Entry Instructions for Specific Data Fields

       We recommend the Medicare Carriers Manual Part 4, § 1015, Exhibit 2, be revised to
       specify that the State license number be entered exactly as shown on State records and
       licenses. The instructions should specify that the number be left justified, and that
       characters, numbers, and spaces are acceptable. In addition, HCFA should review
       instructions for coding provider specialities and certifications to provide for the
       possibilities of “none” under provider speciality and “not applicable” under board
       certification. This should significantly reduce coding errors by carrier personnel for health
       providers who are not board certified or for professions that are not independently
       certified.

Establish a Priority to Review Individuals with Numerous PINs

       The HCFA should require carriers to establish a priority for review of individuals with
       numerous (i.e., more than 10) PIN numbers. Such reviews should address the utilization
       of these numbers and their legitimacy.

Reconcile Identical Fields in UPIN and PIN Records Before Implementing National
Provider Identifier

       The HCFA should ensure that its contractors update applicable changes to all related
       UPIN and PIN records. In planning for the National Provider Identifier and National
       Provider System, HCFA could avoid inconsistent data between these records by using a



    Accuracy of UPIN Data                        3                                     OEI-07-98-00410
     single file for practitioner-specific data, or linking identical fields in different records to
     flag conflicting entries.

AGENCY COMMENTS
     The HCFA concurs with the report and has undertaken or is planning meaningful steps to
     implement the recommendations. Appendix D contains the complete text of these
     comments.




  Accuracy of UPIN Data                          4                                        OEI-07-98-00410
                        TABLE                      OF              CONTENTS

                                                                                                                        PAGE

EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS


         HCFA has taken actions to enhance UPIN data accuracy . . . . . . . . . . . . . . . . . . . . . . . 10


         Problems Continue to Exist With Some Physician Registry Data . . . . . . . . . . . . . . . . . 10


         <     No recent claims for almost one-fourth of active UPINs . . . . . . . . . . . . . . . . . . . . 10


         <     Coding instructions adversely affect the usefulness of information . . . . . . . . . . . . . 11


         <     Some providers have numerous active PINs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


         <     Some UPIN Data is Inconsistent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


         A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        16

         B: Analysis of the Universe - UPIN Header Record Data . . . . . . . . . . . . . . . . . . . . . . .                    17

         C: Analysis of the Universe - UPIN Practice Setting (PIN) Data . . . . . . . . . . . . . . . . . .                     20

         D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   25





     Accuracy of UPIN Data                                     5                                                 OEI-07-98-00410
                           INTRODUCTION

PURPOSE
      To determine whether the information associated with Unique Physician Identification
      Numbers is complete and accurate.

BACKGROUND
      The Consolidated Omnibus Budget Reconciliation Act of 1985, §9201(g)1 requires
      physicians and other health care professionals to obtain a Unique Physician Identification
      Number (UPIN). In 1989, the Health Care Financing Administration (HCFA) established
      the UPIN Registry, formerly known as the Physician Registry and assigned unique
      numbers to Medicare physicians. In 1994, the UPIN Registry was expanded to include
      non-physician practitioners and medical group practices.

      The UPIN is used nationally to uniquely identify physicians, non-physician practitioners
      and medical group practices. These individuals or entities often furnish or bill for medical
      services from several locations or states which are in different carrier jurisdictions. This
      national number distinguishes the individual ordering, referring, or furnishing the service
      or supply from the entity requesting or receiving Medicare reimbursement for the service,
      such as corporations, clinics and partnerships.

Roles of the Carriers

      Before a unique identifier is assigned, the individual or entity must complete an application
      for enrollment with the carrier and provide documentation of professional and
      governmental license requirements. The HCFA has standardized provider enrollment and
      update forms for all carriers, implementing the current version August 1, 1998. As part of
      enrollment, carriers validate that the entity or individual requesting the number meets
      license and other standards under Federal and State laws.2

      Upon completion of all mandated validation requirements, carriers initiate a computer
      inquiry to the Registry to request issuance of the UPIN for the applicant. The carrier
      assigns a Provider Identification Number (PIN) for each practice setting. While a
      physician or other health care practitioner may have more than one PIN (i.e., the provider
      has more than one billing location), only one UPIN is to be issued. The Registry maintains
      data on each PIN under the provider’s UPIN.

      Once the Registry assigns a UPIN and establishes a record, the carrier is responsible for
      assuring that the information on both their provider file and the Registry is updated when
      changes, additions, or deletions are needed. The carrier performs this process
      electronically or by mail. In addition, when the Registry receives information which
      creates a question about the status of the provider, such as suspected death, sanction, or
      fraud, it generates an electronic investigational alert by UPIN to the carrier for their
      research and investigation.



   Accuracy of UPIN Data                        6                                     OEI-07-98-00410
      The billing entity must list the service provider’s UPIN, the referring professional’s
      number (if any), and the entity’s PIN on the claim to receive Medicare reimbursement.
      However, carriers can initially process claims submitted by a new provider without a
      unique number through use of a temporary generic number, only until a permanent number
      is issued.

      As a program safeguard, carriers are instructed to deactivate the PIN if it remains inactive
      (no claims activity) for 12 consecutive months. Prior to October 1998, the Medicare
      Carriers Manual required deactivation of numbers after 3 years of no claims activity. The
      UPIN remains active as long as there is at least one active PIN for the provider. If there is
      no activity on any PIN for 12 months, the UPIN should also be deactivated. In order to
      reactivate a PIN or UPIN, the provider must complete a new General Enrollment form
      and the carrier must verify all enrollment information.

Role of the Registry Contractor

      Transamerica Occidental Life Insurance Company establishes and maintains the Registry
      of physicians, health care practitioners, and group practices receiving Medicare Part B
      payments. During a 5 month implementation period from January - May 1989, the
      Registry processed 1.2 million records submitted by 57 Medicare carriers.3

      The Registry contractor maintains the UPIN Registry, also known as the Medicare
      Physician Identification and Eligibility Record (MPIER), a data base of physician and
      other health provider enrollment information. When a carrier electronically requests
      assignment of a UPIN, the Registry staff performs its own validation to determine if the
      enrollment request can be added to the Registry’s data file.

      If the Registry’s internal validation checks identify discrepancies which need further
      review, it generates electronic exception messages to the carrier. The carrier is to conduct
      the needed validations and either transmit the corrections or contact the Registry to
      resolve the problem. When all validation is completed and approved, the Registry
      transmits the UPIN to the carrier.

Provider Number Issues Previously Identified by the OIG and HCFA

      The OIG completed three studies that examined problems applicable to Medicare provider
      numbers. These studies identified problems with

      <     the accuracy and completeness of carrier provider files.
      <     inadequate carrier controls to deactivate provider numbers for individuals who are not
            submitting claims or have lost the legal authority to practice.
      <     poor communications with State licensing authorities.4




   Accuracy of UPIN Data                        7                                     OEI-07-98-00410
      As a result, the HCFA contracted with Health Economics Research, Inc. to evaluate the
      quality of the Registry data.5 Its review identified the following problems:

      <     as many as 11,600 providers may potentially have more than one number;
      <     nearly 14 percent of the practice settings are no longer being used by the physicians;
      <     the data base contains missing, erroneous, or infeasible entries for several data
            elements (i.e., State license number, date of birth, school code and graduation year);
            and
      <     Railroad Retirement Board carriers account for a disproportionately large share of the
            problems identified.

Implementation Plan for the National Standard Health Care Provider Identifier

      In July 1993, HCFA undertook an initiative to establish a standardized provider identifier,
      the National Provider Identifier (NPI), that will replace the UPINs and PINs. This
      identifier is to be an eight-position alpha numeric identifier. It will be used by all health
      entities that bill or initiate referrals for Medicare patients and ultimately will be used by all
      health care providers and insurers. As part of this process, HCFA is concurrently
      developing a National Provider System which will replace the data currently in the MPIER
      data file. The HCFA estimates that the National Provider Identifier will not be operational
      until the year 2000.

Periodic Re-Validation of Providers

      The HCFA is preparing a Notice of Proposed Rule for public comment which will for the
      first time require Medicare carriers to periodically re-validate information for its providers.
      The proposed rule will require physicians and other health providers to update their
      information every 3 years. New providers will be validated annually for the first
      3 years and then will go to a 3 year re-validation cycle. However, HCFA currently has no
      plans to validate all provider information prior to implementation of the National Provider
      Identifier data base.

METHODOLOGY
      We conducted an analysis of the Medicare Physician Identification and Eligibility Record
      (MPIER) data base as of October 1998 to measure data integrity and its validity for the
      universe and a random sample of UPINs. Further, we performed data comparisons to
      identify providers who may have more than one UPIN. The estimates are weighted in
      accordance with the sample design. Percentages are reported at the 95 percent confidence
      interval. The confidence intervals for these percentages are detailed in Appendix A.

      We also selected a random sample of 225 UPINs associated with 424 PINs from the
      MPIER file, stratified by the year of the last record update to permit analysis of data
      quality and reliability over time. The sample design is given in the table on the following
      page.




   Accuracy of UPIN Data                         8                                        OEI-07-98-00410
                                         SAMPLE DESIGN

                                 Year UPIN            Sample         Universe          Universe
        Strata                  Last Updated           Size              Size           Percent
        Strata 1                 1989 - 1994             75             54,284               6.6%
        Strata 2                 1995 - 1996             75           284,109              34.6%
        Strata 3                 1997 - 1998             75           482,110              58.8%
        Strata Total:                                   225           820,503            100.0%

Data Integrity

      The records in the MPIER file were sorted by UPIN, the date the record was created, and
      the date that the record was last updated. We performed frequency counts and analysis of
      other data fields to determine the number and percentage of data that was missing or
      contained improbable entries. We also performed analysis of variable entries to determine
      if the data appeared to be accurate and complete when compared to other information
      contained in the provider’s identification eligibility record. Further, we determined if the
      missing or questionable data was predominately from only certain data elements and
      issuing carriers.

Data Validity

      To verify the sanction status of the sampled providers, we searched both the “OIG

      Exclusions List” and the General Services Administration’s “List of Parties Excluded from

      Federal Procurement and Non-Procurement Programs.” We also validated education,

      professional license, and speciality through use of the Internet sites of State Professional

      Boards and professional entities such as the American Medical Association and the

      American Board of Medical Specialities. Where Internet information was unavailable or

      incomplete, we contacted the applicable State professional board. In addition, we

      contacted Medicare carriers to validate the sampled active UPINs and PINs, and to

      identify providers who had not submitted claims within the previous 12 or 

      36 consecutive months.


Multiple Numbers

      We matched the universe of UPINs to the associated Social Security Number on the
      Registry to identify providers who may have more than one UPIN. We also compared the
      provider’s name, date of birth and school information.

      We conducted this inspection in accordance with the Quality Standards for Inspections
      issued by the President’s Council on Integrity and Efficiency.




   Accuracy of UPIN Data                       9                                      OEI-07-98-00410
                                  FINDINGS

HCFA Has Taken Meaningful Actions to Enhance the
Accuracy of UPIN Data
      The HCFA has implemented a number of significant enhancements to the provider
      enrollment process designed to improve program safeguards and increase the reliability of
      provider enrollment data. These changes include: additional controls on the assignment of
      provider numbers; new requirements to conduct extensive verification and authentication
      of license and professional qualifications of number applicants; shortened protocols to
      deactivate numbers after 12 months of claims inactivity; requirements for the provider to
      notify the carrier of any changes in their status which are updated by the carrier to the
      Registry, and mandatory inclusion of the Social Security Number. In addition, HCFA is
      proceeding with plans to require the periodic re-validation of provider information.

      As a result of HCFA actions, our analysis of the sample and the universe shows that
      virtually all Registry data fields are complete and contain feasible entries (Appendices B
      and C). We identified only 92 Social Security Numbers associated with more than one
      UPIN. This is a significant improvement when compared to the 1995 Health Economics
      Research study of UPIN Registry data which found that up to 11,600 providers may have
      multiple UPIN registrations.

      The Social Security Number, an important identifier, was inaccurate for 13 percent of the
      total UPINs. We recognize, however, the Balanced Budget Act of 1997 (Public Law 105-
      32) has only recently required providers to furnish this information to receive Medicare
      payment.

Despite These Efforts, Problems Continue to Exist With
Some Physician Registry Data
Almost One-fourth of the Active UPINs Have No Recent Medicare Claims Activity

      In order to deactivate a UPIN, all of the associated PINs must be inactive. To confirm
      this, we compared the active UPINs to their claims activity for all practice settings. From
      our sample we estimate 23 percent of the active UPINs had no claims activity for the past
      year and 17 percent had no claims activity for the past 3 years. We also found that
      four of the active numbers in the sample belonged to providers who were deceased prior
      to 1996. While the carriers had deactivated the PINs, the corresponding UPINs remained
      active.

      A provider should have only one UPIN but can have several PINs, which are billing
      numbers assigned by Medicare contractors to designate separate practice locations or




   Accuracy of UPIN Data                      10                                     OEI-07-98-00410
      accounting designations. Based on sample data, we estimate 39 percent of the associated
      active PINs have no Medicare claims activity within the past year. Twenty-seven percent
      have no activity for the past 3 years.

      Active UPINs and PINs with no recent claims activity represent a vulnerability to the
      Medicare program as unscrupulous individuals and organizations could use these numbers
      to submit fraudulent claims and supporting documents. Also, maintaining these numbers
      creates an unnecessary administrative cost for HCFA and its Medicare contractors.
      Performing provider mailings, researching undeliverable mail, maintaining provider files,
      and paying for computer time and storage are a few of the ongoing operational expenses
      that can be reduced by deactivating these unused numbers.

      The HCFA has notified Medicare carriers to deactivate practice settings’ PINs that have
      not had claims activity for 1 year and to update the UPIN Registry database either
      electronically or by mailed notification. Previously, carriers deactivated these settings
      after 3 years of claims inactivity.

Coding Instructions and Formats Adversely Affect the Usefulness of Information

      From our sample we estimate 88 percent of entries for the State license number do not
      agree with licensure agencies’ information. Of these errors, 72 percent of the numbers
      differ in format, such as missing alpha characters, digits, dashes or spaces and 28 percent
      contain leading zeros in the first 3 positions which do not match the number on file with
      the State licensing entity. Our analysis of the universe also established that 46 percent of
      the numbers contain 3 or more leading zeros (Appendix C). This convention can create
      difficulties in performing computer matching and verification.

      The HCFA instructed Medicare carriers to enter the State license number in this
      12-position data field right justified and preceded with zeros.6 These instructions can alter
      the appearance of the number and therefore, greatly limit the usefulness of this information
      for automated data matching and verification.

      We estimate inaccurate professional school codes for 8 percent of the UPINs and
      5 percent of the PINs. Carriers currently use specific school coding for Medical Doctors,
      Doctors of Osteopathy, Chiropractors, and Optometrists for U.S. educated professionals.
      Categorical coding is used for all others, including professionals educated abroad.7

      We found additional problems with the sample data for physician primary board speciality
      and certification. The HCFA instructions for these data fields do not specify coding for
      those health professionals not certified by independent boards.5 Moreover, the coding
      options do not provide a choice of “none” or “non-applicable”. From our sample we
      estimate the primary provider speciality code, a required entry for the UPIN Registry, was
      83 percent accurate. However, the primary speciality board certification code, which is
      optional, was only 28 percent accurate. Problems detected included extensive use of the
      “U” (unknown) code and inconsistent coding for health professionals such as
      chiropractors, optometrists, nurses (excluding certified registered nurse anesthetists),
      psychologists, and physical therapists who are not certified by independent boards.




   Accuracy of UPIN Data                       11                                      OEI-07-98-00410
      For the universe, since we could not determine the accuracy of the primary provider
      speciality code, we analyzed the data to determine if it contained feasible values as defined
      by HCFA. We found 99.9 percent of the entries corresponded to legitimate speciality
      codes. However, the primary speciality board certification was coded as “unknown” for
      38 percent of the practices (Appendix C).

      We identified the same issues in the sample for the physician secondary board speciality
      and certification (optional data), but the problems were more pronounced. We estimate
      only 76 percent of the speciality codes and 4 percent of the secondary speciality board
      certification codes were accurate. Problems detected included inconsistent coding for
      board certification and use of all code choices, or no entry for the speciality “Carrier
      Wide,” which is synonymous for none or not applicable. This accounted for 92 percent of
      the errors in the secondary speciality board certification code. For the universe, the
      secondary provider speciality code was blank 94 percent of the time, and the
      corresponding secondary speciality board certification code contained an entry of
      “unknown” (70 percent) or did not contain data (25 percent). Refer to Appendix C.

Some Providers Have Numerous Active PINS

      In analyzing the number of active practices for each UPIN, we found that many providers
      (68 percent of the total UPIN universe) had 3 or less practice settings and most
      (97.9 percent) had 10 or fewer settings. However, the 9,535 remaining PIN numbers had
      up to 57 separate billing numbers or practice settings for each UPIN:

      <     8,219 providers had 11 to 20;
      <     820 providers had 21 to 30;
      <     414 providers had 31 to 40;
      <     78 providers had 41 to 50; and
      <     4 providers had 51 to 57 practice settings.

      This small group of providers, in reflecting a high volume of practice locations, represent
      an enhanced risk for improper billing or utilization by the provider, employees, a third
      party, or even carrier personnel.

Some UPIN Data is Inconsistent

      Several UPIN data fields for a provider’s individual practice settings contain data that
      apply to all of their practice locations. Examples include: State license number;
      Professional School Code; Primary and Secondary Speciality Codes; and Primary and
      Secondary Speciality Board Certification Codes. We found carriers are updating only
      some of the provider-specific practice information on the UPIN record, resulting in
      inconsistencies for different practice locations. Maintaining such information on each
      provider’s practice setting greatly increases the opportunity for errors, omissions, and
      discrepancies.




   Accuracy of UPIN Data                        12                                    OEI-07-98-00410
                          RECOMMENDATIONS

     Accurate enrollment and practice information for Medicare providers is vital to ensure that
     only qualified health care professionals furnish treatment to Medicare beneficiaries. The
     HCFA has stated its intent to use the data contained in the UPIN Registry as source
     information for the NPI data base. Therefore, it is important that the UPIN and PIN data
     be both accurate and specific. While HCFA has initiated important improvements in the
     enrollment and updating of health care providers which should greatly improve the
     accuracy and reliability of the data records, a number of problems continue to exist.
     Accordingly, we recommend that HCFA implement the following actions to improve the
     overall accuracy and reliability of this data.

Deactivate UPINs and PINs for Inactive Providers and
Practice Locations
     The HCFA should ensure that carriers deactivate PINs and UPINs in accordance with its
     instructions when no claims have been submitted to them for the preceding 12 months.
     This should be an active review element of the periodic Carrier Performance Evaluation
     (CPE) review. To reduce program vulnerabilities and minimize administrative costs,
     HCFA could consider implementing a shorter time frame (i.e., 2 consecutive quarters).

Improve Data Entry Instructions for Specific Data Fields
     We recommend the Medicare Carriers Manual Part 4, § 1015, Exhibit 2, be revised to
     specify that the State license number be entered exactly as shown on State records or
     licenses. The instructions should specify that the number be left justified, and that
     characters, numbers, and spaces are acceptable.

     In addition, HCFA should revise instructions for coding provider specialities and
     certifications, to provide for the possibilities of “none” under provider speciality and “not
     applicable” under board certification. This should significantly reduce coding errors by
     carrier personnel for health providers who are not board certified or for professions that
     are not independently certified.

Establish a Priority to Review Individuals with Numerous
PINs
     As part of its re-validation of providers, HCFA should require carriers to establish a
     priority for the review of individuals with numerous (i.e., more than 10) PIN numbers.
     Such reviews should address the utilization of these numbers and their legitimacy.




  Accuracy of UPIN Data                        13                                     OEI-07-98-00410
Reconcile Identical Fields in UPIN and PIN Records Before
Implementing NPI
     The HCFA should ensure that its contractors update applicable changes to all related
     UPIN and PIN records. In planning for the National Provider Identifier and National
     Provider System, HCFA could avoid inconsistent data between these records by using a
     single file for practitioner-specific data, or linking identical fields in different records to
     flag conflicting entries.

AGENCY COMMENTS
     The HCFA concurs with the report and has undertaken or is planning meaningful steps to
     implement the recommendations. Appendix D contains the complete text of these
     comments.




  Accuracy of UPIN Data                         14                                       OEI-07-98-00410
                                  ENDNOTES

1. Public Law (P.L. 99-272), signed into law April 7, 1986.

2. “Medicare Carriers Manual, Professional Relations,” (Pub. 14-4) § 1030.5D. As part of the
enrollment process, carriers must:
       < establish that the facility, entity, or individual is properly licensed, certified, and
            registered under State law;
       <	 establish evidence of qualifying course work from educational institution(s) from
            which the applicant received his medical, professional, or related training including
            Diplomas or degrees;
       < authenticate each board certification listed by the applicant;
       < establish that the facility, entity, or individual is not excluded from the Medicare and
            Medicaid programs;
       <	 verify that the applicant is not on the General Services Administration’s “List of
            Parties Excluded from Federal Procurement and Non-procurement Programs (List of
            Parties)”; and,
       <	 determine whether the individual or entity has or previously had a Medicare Provider
            Identification Number (PIN).

3. Health Economics Research Inc., “Unique Physician Identification Number (UPIN) Validation
Studies: Carrier Analysis,” August 23, 1994, p 21.

4. Previous Office of Inspector General Reports include
       “Carrier Maintenance of Medicare Provider Numbers,” OEI-06-89-00870, June 1991.
       “Carrier Assignment of Medicare Provider Numbers,” OEI-06-89-00871, April 1992.
       “Carriers Still Need to Purge Unused Provider Numbers,” OEI-01-94-00231,
          December 1995.

5. Health Economics Research, Inc. issued the following “Unique Physician Identification
Number (UPIN) Validation Studies”
       “Carrier Edits,” May 27, 1994.
       “Carrier Analysis,” August 23, 1994.
       “Documentation for the UPIN Integrity and Multiple-UPIN Files,” October 5, 1994.
       “Final Report,” February 7, 1995.
       “Understanding Properties of the UPIN for Claims-Based Research,” February 11, 1997.

6. “Medicare Carriers Manual, Professional Relations,” (Pub. 14 - 4) §1015, Exhibit 2.

7. Ibid, Exhibits 3A - 3D. Specific school code listing for M.D.’s, D.O.’s, D.P.M.’s, D.C.’s and
O.D.’s. 	The following categorical codes are used for other health professionals:
        10000 - D.D.M.’s;
        20000 - D.D.S.’s
        60000 - Nurses;
        70000 - other U.S. educated health professionals; and
        99999 - professionals educated abroad.




    Accuracy of UPIN Data                      15                                    OEI-07-98-00410
                                                                          APPENDIX A

                         Estimates and Confidence Intervals

The following table summarizes the estimates at the 95 percent confidence intervals for key data
presented in this report. The estimates refer to projected error rates for specified variables in the
Universe of the UPIN Registry.

                                                                    Weighted                  95%
                                                                        Error           Confidence
 Data Variable                                                     Percentage             Interval
 No Claims Filed in the Last 12 Months (UPIN)                             23%               +/- 6.5%
 No Claims Filed in the Last 36 Months (UPIN)                             17%               +/- 5.7%
 No Claims Filed in the Last 12 Months (PIN)                              39%               +/- 6.7%
 No Claims Filed in the Last 36 Months (PIN)                              27%               +/- 5.9%
 State License Number (UPIN - overall)                                    88%               +/- 5.2%
 State License Number (UPIN - format problem)1                            72%               +/-7.1%
 State License Number (UPIN - leading zero problem)1                      28%               +/- 7.1%
 Professional School Codes (UPIN)
                                          8%                +-/ 4%
 Professional School Codes (PIN)
                                           5%              +/- 2.8%
 Primary Board Speciality Code (UPIN)
                                    17%               +/-6.1%
 Primary Board Certification Code (UPIN)
                                 72%               +/-6.9%
 Secondary Board Speciality Code (UPIN)
                                  24%               +/-6.8%
 Secondary Board Certification Code (UPIN)
                               96%               +/-3.2%
 1
  These are the proportionate percentages that contribute to the overall estimated 88 percent
 error rate for the State License number.




     Accuracy of UPIN Data                        16                                     OEI-07-98-00410
                                                      APPENDIX B

                        Medicare Physician Identification

                             and Eligibility Record

                           Analysis of the Universe

                           UPIN Header Record Data





Accuracy of UPIN Data                  17                    OEI-07-98-00410
            Medicare Physician Identification and Eligibility Record Data Elements
                    Analysis of the Universe - UPIN Header Record Data
                                                                                               Percent of
Field Identifier / Analytical Criteria                                              Total1      Universe

Date of Birth

        Feasible Entry - Year code is 1918 to 1973, month and day are valid.2      677,996           98.6%

        Questionable Entry - Year code is 1901 to 1917, or 1899, month and day
        are valid.2                                                                  7,616           1.1%

        Erroneous Entry - Any code other than listed above.                          1,171           0.2%

        Missing Entry - Year code is all 9's, 0's or blanks.                           982           0.1%

Date of Death

        Alive - Date code is 0's or blanks.                                        686,823           99.9%

        Feasible Entry - Year code is 1997 or 1998, month and day are valid.           476           0.1%

        Questionable Entry - Year code is 1901 to 1996, month and day are valid.       465           0.1%

        Erroneous Entry - Any code other than listed above.                              1               *

School Code

        Specific School Code Entry - Contains one of the school codes listed in
        the Medicare Carriers Manual.3                                             501,177           72.9%

        Foreign School Categorical Code - Entry is equal to code 99999.            121,294           17.6%

        Chiropractic School Categorical Code - Entry is equal to code 50000.        33,066           4.8%

        DDS Categorical School Code - Entry is equal to code 20000.                 20,134           2.9%

        DDM Categorical School Code - Entry is equal to code 10000.                  4,295           0.6%

        Erroneous Entry - Any code other than listed above.                          3,812           0.6%

        Missing Entry - Code is all blanks, all 0's or 00001.                        2,964           0.4%

        Retired School Code                                                            947           0.1%

        Other Health Professions Categorical Code - Entry is equal to code
        70000.                                                                          68               *

        Nursing School Categorical Code - Entry is equal to code 60000.                  8               *
        1
          Universe total for each header record field is 687,765.
        2
          Span of years is comparable to interval used in the Health Economics Research Studies.
        3
          “Medicare Carriers Manual, Professional Relations,” (Pub 14-4) § 1015, Exhibits 3A - 3D.
        * Rounds to zero percent.




   Accuracy of UPIN Data                               18                                    OEI-07-98-00410
            Medicare Physician Identification and Eligibility Record Data Elements
                    Analysis of the Universe - UPIN Header Record Data
                                                                                                  Percent of
Field Identifier / Analytical Criteria                                                 Total1      Universe

Graduation Year

        Feasible Entry - Year code is 1945 to 1998.4                                  670,994         97.6%

        Questionable Entry - Year code is 1935 to 1944.4                                8,166           1.2%

        Erroneous Entry - Any code other than listed above.                             5,858           0.9%

        Missing Entry - Year code is all 9's, 0's or blanks.                            2,747           0.4%

Sanction Code

        Not Sanctioned - Code is all blanks.                                          686,247         99.8%

        Feasible Entry - Code is A to R.5                                               1,459           0.2%

        Unknown - Individual is sanctioned but type of sanction action is code “U”
        for unknown.                                                                      57                *

        Erroneous Entry - Any code other than listed above.                                2                *

Sanction Date

        Not Sanctioned - Year code is all blanks or 0's.                              685,573         99.7%

        Feasible Entry - Year code is 1966 to 1998, and month is valid.                 2,059           0.3%

        Erroneous Entry - Any code other than listed above.                              133                *

Sanction Length

        Not Sanctioned - Code is all blanks or 0's.                                   685,616         99.7%

        Feasible Entry - Code for years of sanction is between 1 to 15, 20, 25, 30,
        35, 40, 45, 50, 99.                                                             2,101           0.3%

        Questionable Entry - Code for years of sanction is 16 to 19, 21 to 24, 26
        to 29, 31 to 34, 36 to 39, 41 to 44, 46 to 49, 51 to 98.                          48                *

Social Security Number

        Feasible Entry                                                                594,318         86.7%

        Missing Entry                                                                      1                *

        Zero Entry - Code is all 0's or 9's                                            93,446         13.3%
        4
         Span of years is comparable to interval used in the Health Economics Research Studies.
        5
         “Medicare Carriers Manual, Professional Relations,” (Pub. 14 - 4) §1015, Exhibit 4.
        * Rounds to zero percent.




   Accuracy of UPIN Data                               19                                       OEI-07-98-00410
                                                  APPENDIX C

                 Medicare Physician Identification and 

                   Eligibility Record Data Elements

                       Analysis of the Universe

                   UPIN Practice Setting (PIN) Data





Accuracy of UPIN Data              20                      OEI-07-98-00410
                Medicare Physician Identification and Eligibility Data Elements
                 Analysis of the Universe - UPIN Practice Setting (PIN) Data
                                                                                   Universe       Universe
Field Identifier / Flag Description                                                  Total1        Percent
Date of Birth
        Feasible Entry - Year code is 1918 to 1973, month and day are valid.2      1,806,547         98.9%
        Questionable Entry - Year code is 1901 to 1917, or 1899, month and day
        are valid.2                                                                  12,198            0.7%
        Missing Entry - Year code is all 9's, 0's or blanks.                          4,891            0.3%
        Erroneous Entry - Any code other than listed above.                           2,443            0.1%
Date of Death
        Alive - Date code is 0's or blanks.                                        1,826,062        100.0%
        Feasible Entry - Year code is 1997 or 1998, month and day are valid.             11                *
        Questionable Entry - Year code is 1901 to 1996, month and day are valid.          6                *
School Code
        Specific School Code Entry - Contains one of the school codes listed in
        the Medicare Carriers Manual.3                                             1,366,674         74.8%
        Foreign School Categorical Code - Entry is equal to code 99999.             367,231          20.1%
        Chiropractic School Categorical Code - Entry is equal to code 50000.         46,045            2.5%
        DDS Categorical School Code - Entry is equal to code 20000.                  25,011            1.4%
        Erroneous Entry - Any code other than listed above.                           7,555            0.4%
        Missing Entry - Code is all blanks, all 0's or 00001.                         6,056            0.3%
        DDM Categorical School Code - Entry is equal to code 10000.                   5,321            0.3%
        Retired School Code                                                           2,088            0.1%
        Other Health Professions Categorical Code - Entry is equal to code
        70000.                                                                           88                *
        Nursing School Categorical Code - Entry is equal to code 60000.                  10                *
        1
          Universe total for each practice field is 1,826,079.
        2
          Span of years is comparable to interval used in the Health Economics Research Studies.
        3
          “Medicare Carriers Manual, Professional Relations,” (Pub 14-4) § 1015, Exhibits 3A - 3D.
        * Rounds to zero percent.




   Accuracy of UPIN Data                               21                                      OEI-07-98-00410
               Medicare Physician Identification and Eligibility Data Elements
                Analysis of the Universe - UPIN Practice Setting (PIN) Data
                                                                                    Universe       Universe
Field Identifier / Flag Description                                                   Total1        Percent
Graduation Year
        Feasible Entry - Year code is 1945 to 1998.4                                1,798,111         98.5%
        Questionable Entry - Year code is 1935 to 1944.4                              13,352            0.7%
        Missing Entry - Year code is all 9's, 0's or blanks.                           8,261            0.5%
        Erroneous Entry -Any code other than listed above.                             6,355            0.3%
Physician Status Code (Type of Provider Listed in Carriers Manual)
        Feasible Entry - Code is 1, 2, or 3.5                                       1,825,975        100.0%
        Erroneous Entry - Any code other than listed above.                              104                *
Credential Code
        Feasible Entry - Code is MD, DO, CH DPM, DDS, DDM, OD, CSW, PT,
        CP, AA, NP, OT, CNA, PSY, PA, CNM., CNS, AU.6                               1,825,976        100.0%
        Erroneous Entry - Any code other than listed above.                              103                *
State License Number
        Lead Zeros - Code for the first 3 digits of the license number are 0's.      837,736          45.9%
        Number Justification - Entry is not right justified.                         764,008          41.8%
        Feasible Entry - It contains an alpha numeric entry not otherwise listed.    208,606          11.4%
        Missing Entry - Code is all blanks.                                           12,510            0.7%
        Zero Entry - Code is all 0's.                                                  3,219            0.2%
License State Code
        Feasible Entry - Code is a standard postal state abbreviation (including
        U.S. properties).                                                           1,826,073        100.0%
        Erroneous Entry - Any code other than listed above.                                6                *
        4
          Span of years is comparable to interval used in the Health Economics Research Studies.
        5
          “Medicare Carriers Manual, Professional Relations,” (Pub 14-4) § 1015, Exhibit 2, (2).
        6
          “Medicare Carriers Manual, Professional Relations,” (Pub 14-4) § 1015, Exhibit 2, (21).
        * Rounds to zero percent.




   Accuracy of UPIN Data                               22                                       OEI-07-98-00410
               Medicare Physician Identification and Eligibility Data Elements
                Analysis of the Universe - UPIN Practice Setting (PIN) Data
                                                                                    Universe       Universe
Field Identifier / Flag Description                                                   Total1        Percent
Primary Speciality Code
        Feasible Entry - Contains one of the valid speciality codes listed in the
        HCFA “Data Users Reference Guide”.7                                         1,824,864         99.9%
        Unknown Entry -Code is 99.                                                       618                *
        Retired Entry - Code is retired - osteopathic speciality code.                   321                *
        Revised Entry - Code is 49 (formerly for a miscellaneous speciality,
        redesignated as an Ambulatory Surgical Center).                                  260                *
        Erroneous Entry - Any code other than listed above.                               16                *
Primary Speciality Board Certification Code
        Feasible Entry - Code is ”Y”or “N”.                                         1,132,899         62.0%
        Unknown Entry - Code is “U”.                                                 693,180          38.0%
Secondary Speciality Code
        Missing Entry - Code is all blanks.                                         1,712,541         93.8%
        Feasible Entry -Contains one of the valid speciality codes listed in the
        HCFA “Data Users Reference Guide”.7                                          113,394            6.2%
        Unknown Entry - Code is 99.                                                       88                *
        Retired Entry -Code is retired - osteopathic speciality code.                     49                *
        Erroneous Entry - Any code other than listed above.                                6                *
        Revised Entry -Code is 49 (formerly for a miscellaneous speciality,
        redesignated as an Ambulatory Surgical Center).                                    1                *
Secondary Speciality Board Certification Code
        Unknown Entry - Code is “U”.                                                1,271,103         69.6%
        Missing Entry - Code is all blanks.                                          450,819          24.7%
        Feasible Entry - Code is ”Y”or “N”.                                          104,157            5.7%
UPIN Status Code - Deactivated, Resident, Intern, Practice (DRIP)
        Feasible Entry - Code is R, I, or P (Active Practice).                      1,826,039        100.0%
        Erroneous Entry - Any code other than listed above.                               40                *
        7
         Health Care Financing Administration, “Data Users Reference Guide,” March 1997, Appendix
         of Common Codes, pp 75 - 77.
        *Rounds to zero percent.




   Accuracy of UPIN Data                              23                                        OEI-07-98-00410
                Medicare Physician Identification and Eligibility Data Elements
                 Analysis of the Universe - UPIN Practice Setting (PIN) Data
                                                                                      Universe       Universe
Field Identifier / Flag Description                                                     Total1        Percent
Participation Status Code
        Feasible Entry - Code is “Y” or “N”.                                          1,826,076        100.0%
        Missing Entry - Code is all blanks.                                                  2                *
        Erroneous Entry - Any code other than listed above.                                  1                *
Group Practice Indicator
        Feasible Entry - Code is 1 (group) or 4 (solo) practice.                      1,824,555         99.9%
        Erroneous Entry - Any code other than listed above.                              1,521            0.1%
        Missing Entry - Code is all 0's or blanks.                                           3                *
Sanction Code
        Not Sanctioned - Code is all blanks.                                          1,824,038         99.9%
        Feasible Entry - Code is A to R.8                                                1,948            0.1%
        Unknown - Code is U, individual is sanctioned but type of sanction action
        is unknown.                                                                         93                *
Sanction Date
        Not Sanctioned - Date code is all blanks.                                     1,824,430         99.9%
        Feasible Entry - Year code is between 1966 to 1998, and month is valid.          1,531            0.1%
        Erroneous Entry - Any code other than listed above.                                118                *
Sanction Length
        Not Sanctioned - Code is blank or 0.                                          1,824,442         99.9%
        Feasible Entry - Code for years of sanction is between 1 to 15, 20, 25, 30,
        35, 40, 45, 50, 99.                                                              1,608            0.1%
        Questionable Entry - Code for years of sanction is between 16 to 19, 21 to
        24, 26 to 29, 31 to 34, 36 to 39, 41 to 44, 46 to 49, 51 to 98.                     29                *
Social Security Number
        Feasible Entry                                                                1,319,135         72.2%
        Missing Entry                                                                        1                *
        Zero Entry - Code is all 0's or 9's                                            506,943          27.8%
        8
         “Medicare Carriers Manual, Professional relations,” (Pub. 14 - 4) §1015, Exhibit 4.
        * Rounds to zero percent.




   Accuracy of UPIN Data                              24                                          OEI-07-98-00410
                                           APPENDIX D

                        Agency Comments





Accuracy of UPIN Data          25               OEI-07-98-00410
